CERTIFICATE OF COMPLIANCE
Case No. 20-366
Caption: Trump v. New York
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 8,992 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 7, 2020.

Record Press, Inc.

Sworn to before me on
October 7, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 01086101366
Qualified in Kings County

Notary Public

